LEGAL PRINTERS,

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

February 4, 2020
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE NO. 19-832: APPLE INC. V. VIRNETX INC., ET AL.
Dear Sir or Madam:
I hereby certify that at the request of counsel for the Petitioner, on February 4,
2020, I caused service to be made pursuant to Rule 29 on the following counsel for the
Respondents:
RESPONDENTS:
Jeffrey Alan Lamken
MoloLamken LLP
The Watergate, Suite 660
600 New Hampshire Ave., N.W.
Washington, DC 20037
202-556-2010
jlamken@mololamken.com
This service was effected by depositing three copies of the Petitioner's Reply
Brief in an official “first class mail” receptacle of the United States Post Office as well
as by transmitting a digital copy via electronic mail.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 4th day of February 2020.

